Department of Health and Human 
                             Servces
               OFFICE OF

          INSPECTOR GENERAL





                                   ZERO CROSSERS





                                          Richard P. Kusserow
                       ( JiL              INSPECTOR GENERA

                                   ,f3a        AUGUST 1991
                           OFFCE OF INSPECfORGENRA

 The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95-452
 as amended , is to protect the integrty of the Department of Health and Human Servce
 (HHS) programs as well as the health and welf!ire of beneficiaries served by those programs.
 Th statutory mission is carried out through a natiOfwi e network of audits , investigations
, and inspetions conducted by three OIG operating ' components: the Offce of Audit
 Servce , the Office of Investigations , amI the Offce of Evaluation and Inpections. The
 DIG also inform the Secretary of HHS of program and management problems and
 recmmends courses to correct them.

                               OFFCE OF AUDIT SERVICE
The DIG's Offce of Audit Servces (OAS) provides all auditing servce       for HHS , either by
conducting audits with its own audit resurce or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or itS grantees and contractors in
carrng out their respective responsibilities and are intended to provide independent
asesments of HHS programs and operations in order to reduce waste, abuse, and
mimanagement and to promote economy and effciency throughout the Department.

                               OFFICE OF        INTIGATIONS
 The DIG's   Offce of Investigations (01) conducts criminal , civil , and administrative
 investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
 unjust enrchment by providers. The investigative effort of 01 lead to crinal convictions
 admintrative sanctions , or civil money penalties. The 01 also oversee State Medicaid fraud
 control units which investigate and prosecute fraud and patient abuse in the Medicaid
 program.

                     OFFCE OF EVALUATION AN INSPECTONS
 The DIG's   Office of Evaluation and Inpections (DEI) conducts short- term management and
 progrm evaluations (called inspections) that focus on isues of Concern to the Department
 the Congress ,      and the public. The ' findings and recommendations contained in these
 inpetion report generate rapid , accurate, and up- to-ate information on       the   effciency,
 wlnerabilty, and effectiveness of departmental programs.

 The report was prepared by the Philadelphia Regional office under the direction of
 Joy Quil, Regional Inspector General and Robert Vito, Deputy Regional Inpector General.
 Project Staff:

 Robert A    Katz,     Project Leader
 Cythia R. Hansford

 W. Mark Krushat (Headquarters)

 Wayne Powell (Headquarters)

Department of Health and Human Services

            OFFICE OF

       INSPECTOR GENERA





              ZERO CROSSERS





                     Richard P. Kusserow
                     INSPECfOR GENERAL

        '.t   Ciao       OEI- 03- 91­
                        EXECUTIVE SUMMAR 

 PUROSE
 This report quantifies Medicare reimbursement for in-office diagnostic tests of
 arteries and veins conducted with ultrasonic detecting devices using a " zero-crossing
 technique.

 BACKGROUN
 In a previous report (Low- Cost U1trasound Equipment , OEI- 03-88- 01401), we
 reviewed the appropriateness of Medicare reimbursement for diagnostic tests
 conducted with unsophisticated , ultrasonic devices. We encountered two basic
 of devices-- Pocket Dopplers
                                                                                       tyes
                                and Zero   Crossers.

Pocket Dopplers are the least sophisticated tye of ultrasound equipment. Small
hand- held devices , they are tyically nondirectional and their only output is audio.

A variety of devices exist at a technological step above Pocket Dopplers. These
devices--which we term Zero Crossers-- document test results via a recordable
waveform , similar to an electrocardiograph (EKG) record. Typically, these devices
are bidirectional , constructed in a table- top   configuration ,   and cost between $3000
and $7000.



METHODOLOGY

This report is based on a random sample consisting of 480 services from 8 Medicare
carriers. The selected carriers represent more than half of in-office allowances for
ultrasonic vascular tests nationally. We limited the selected servces to in-office
diagnostic vascular tests conducted during 1988.

FININGS
Seventeen Percent of Servces Were Conducted Wih Zero Crossers

Fifty- three servces in our   ample--represeI)ting 17 percent of the responses--were
conducted with Zero Crossers. We calculate that Zero Crossers were used to
conduct 62 079 servces in 1988.
Medicare Allowed Between             $8   and   $12   Million for Servces Conducted With Zero

Crossers in 1988


We estimate that Medicare allowed about $8 milion for servces conducted with
Zero Crossers. If non-respondents and respondents had the same usage rate , an
additional $4 milion could have been allowed for Zero Crossers in 1988.

Many Tests Done            Wtth   Zero Crosers May Be Inaccuate

A review of scientific literature revealed a number of studies highlighting             deficiencies
in the accuracy of equipment using zero-crossing technology.

Reimburement for Zero Crossers and More Sophisticated Eqipment are Simil

Zero Crossers were reimbursed about the same as devices producing sophisticated
and clinically detailed imaging. The Medicare allowance for Zero Crossers was
approximately $125 (weighted average) while the average allowance for state-of- the­
art equipment was about $135.

CONCLUSION

Our " Low- Cost Ultrasound Equipment " report recommends that HCF A advocate
revisions in procedure codes and reimbursement rates to reflect the different              levels
of sophistication and quality of diagnostic information provided in such tests.

\Ve continue to support this recommendation. If HCF A adopts it , potential savings
from the 5- year period beginning 1992 range from about $25 million to $124 millon
depending on the reimbursement level.
          . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . .




                  TABLE OF CONTENTS

EXUT SUMY


INODUCTON                                                                                                                  . . . . . . . . . . . I





FIINGS ...................................................                                                                                      5





CONCLUSION                                                                                                         . . . . . . . . . . . . . 7




APPENIX                                                                                                      . . . . . . . . . . . . . A­
                          INTRODUCTION

 PUROSE
This report quantifies Medicare reimbursement for in-office diagnostic tests of
arteries and veins conducted with ultrasonic detecting devices using a " zero-crossing
technique.

BACKGROUN
Diagnosticians use sensitive instruments operating on ultrasound principles to detect
arterial and vascular diseases. These devices emit high frequency soundwaves into
the tissues. Depending on the sophistication of the device used , reflected ultrasound
signals may be detected by one of four techniques--audio only, strip-chart recording
using a " zero crossing " technique , spectral analysis , or imaging. In general , audio-
only devices are considered the least accurate and refined of the various
                                                                             methods.

Imaging devices produce superior diagnostic     output.



Diagnostic ultrasound tests are usually conducted using " mid- level" equipment. This
equipment costs from $15 000 to $60 000 and offers a wide range of sophisticated
options , such as remote control , selectable frequency ranges , and video spectrum
analysis of blood flow measurements. The ensuing diagnostic output provides a level
of quality which meets the needs of most clinicians.

More expensive (so-called " state-of- the-art ) equipment offers two- dimensional
displays , computerized analysis , and color- flow imaging. Devices equipped with
color- flow imaging produce video pictures of blood flow velocities in combinations of
red , blue , and green. Changes in the intensity of color and blood flow velocity can
indicate an irregularity, such as a blockage.

Nationally, Medicare allowances for four major procedure codes used in diagnostic
ultrasound tests of arteries and veins surpassed $88 million for in-office servces in
1989 , an increase of more than 31 percent over 1988. These tests increased almost
25 percent for the corresponding period.



In a previous report (Low,. Cost   Ultrasound Equipment , OEI- 03-88- 01401), we
reviewed the appropriateness of Medicare reimbursements for diagnostic tests
conducted with inexpensive. relatively unsophisticated ultrasonic devices. We
encountered two basic types of devices-- Pocket Dopplers and Zero Crossers.
Pocket Dopplers   and     Zero Crossers

Pocket Dopplers are the least sophisticated type of ultrasound equipment. A hand­
held device , the typical Pocket Doppler transmits a continuous or pulsed beam of
ultrasound at moving blood cells. Typically, the Pocket Doppler is non directional
(i. , it is incapable of determining the direction of blood flow) and produces audio
signals only. Such tests can be conducted in less than five minutes. These devices
are marketed as diagnostic ultrasound equipment and generally cost under $1000.

We reported the impact of Pocket Doppler usage in a Management Advisory
Report , entitled " Pocket Dopplers " (OEI- 03- 91- 00461). Our findings on Zero
Crossers are addressed in this report.

A variety of devices exist at a technological step above Pocket Dopplers. These
devices--which we term Zero Crossers-- document test results via a recordable
waveform. This process converts the mean frequency of the doppler signal into a
proportional display via a frequency- to-voltage (zero crossing) strip-chart tracing,
similar to an electrocardiograph (EKG) recording. Typically, these devices are
bidirectional (capable of determining blood flow direction), constructed in a table­
top configuration ,     and cost between $3000   and $7000.

Test result evidence is the most obvious clinical difference between Pocket Dopplers
and Zero Crossers. (Pocket Dopplers do not produce objective test evidence while
Zero Crossers provide tangible evidence. ) More sophisticated equipment provides
detailed documentation using spectral analysis or high-resolution images.

A device using zero-crossing technology records the average speed of all the cars on
a highway, while spectral analysis registers the individual speed of each car , according
to an analogy offered by one expert. In effect , a Zero Crosser provides a single
frequency display of the soundwave whereas spectral analysis records multiple
quantitative frequencies. State-of- the-art equipment tyically produces test results in
a video hard-copy image.



Approximately 15 manufacturers produce and market Pocket        Dopplers and Zero
Crossers. Industry sources                      000 units are in active use in
                                estimate that at least 100
the medical community. About 20 000 new units were sold in 1990.
Prevous Inspection Finings

 Our previous study highlighted a number of issues and concerns. Briefly, we found:

    A variety of ultrasound equipment exists ranging from Pocket Dopplers to
    state-of- the art equipment costing more than $300 000.

    Medicare procedure codes fail to distinguish between test tyes or results.
    The Health Care Financing Administration Procedure Coding System
    (HCPCS) does not differentiate between the extent of a test or the nature
    test results. Further , the same rate of reimbursement applies to a test
    without regard to its extensiveness or the quality of the data produced.

    There are strong incentives for excessive use. Since Medicare
    reimbursements do not consider the quality of equipment used and the
                       , excessive payments can be claimed for a relatively
    quality of test results
    simple screening test based on a comparatively modest investment.

    The Health Care Financing Administration (HCF A) is vulnerable to
    inappropriate bilings.    Medicare carriers lack sufficient safeguards to detect
    bilings based on inferior test results.

    A precedent exists to deny payments for Pocket Doppler tests. In       a previous
    decision , HCF A ruled that a portable hand- held x-ray instrument " should be
    reimbursed as part of the physician s professional service , and no additional
    charge should be allowed.

We recommended that HCFA prohibit payment for Pocket Doppler tests and
advocate revisions in procedure codes and reimbursement rates to reflect the
different levels of sophistication and quality of diagnostic information provided in
ultrasound tests.

METIODOLOGY

This report is based on a 2-stage random sample consisting of 480 servces from 8
Medicare carriers. During the first stage of sampling, 8 Medicare carriers were
randomly selected , with the probability of selection proportionate to total amounts
reimbursed under Medicare in 1988. The selected carriers represent more than half
of in-office allowances for ultrasonic vascular tests nationally. The carriers were
Florida Blue Shield; Michigan Blue Shield; Empire Blue Shield (New York);
California Blue Shield; Arkansas Blue Shield , as the carrier for Louisiana; Blue
Shield of Indiana; Transamerica Occidental of California; and the Railroad
Retirement Board.

At the second stage of sampling, we selected 60 servces per carrier from 1988 Part
B Medicare Annual Data      (BMA) bilings. We limited the selected services to in-
office diagnostic vascular tests conducted during 1988. The services consist of four of
the most commonly used HCPCS codes by practitioners of these tests: 93910
(noninvasive studies of lower extremity arteries); 93950 (noninvasive studies of lower
extremity veins); 93860 (noninvasive studies of carotid arteries); and 93890
(noninvasive studies of upper extremity arteries).

After the  carriers supplied us with pertinent claims data , we wrote to the
practitioners requesting detailed information on the tyes of equipment used
conduct the tests. In particular , we were interested in five features--configuration
(pocket , portable , pen , tabletop); power source; blood flow direction; price; and
documentation capabilty. We also requested copies of any charts , graphs , or
printouts produced during the tests.

We reviewed the responses against scientific publications , manufacturers ' catalogs
and related technical materials to determine if low-cost devices had been used to
conduct the tests. We consulted with a Registered Vascular Technologist (RVT)
who reviewed test results and assisted us in making determinations.
                                 FINDINGS

Seventeen Percent of Servces Were Conducted With Zero Crossers

Sixty- five
          percent of the providers in our sample (314 of 480) responded to our
requests. Based on our analysis , we determined that 53 services in our sample-­
representing 17 percent of the responses--were conducted with Zero Crossers.
Applying the 17 percent usage rate and the 65 percent response rate , we calculate
Zero Crossers were used to conduct 62 079 services in 1988. If non-respondents
usage rates were the same as for respondents , servces conducted by Zero Crossers
could increase by 33 427 in 1988 ,   bringing total 1988   servces to 95   506.

In our " Pocket Doppler " report , we found that Pocket Dopplers accounted for 7
percent of ultrasound tests in 1988. Taken together, tests done by Pocket Dopplers
and Zero Crossers represent nearly one- quarter of all in-office ultrasound tests
conducted in 1988.


Medicae Alowed Between $8 and $12 Mion for Servces Conducted With Zero
Crossers in 1988. Alowances for 5 Years Could be $124 Mion

Allowances for sample servces conducted with Zero Crossers ranged            from a low of
$15 to a high of $324 with an   overall weighted average of $125.      Based on our
projections , we estimate that Medicare allowed approximately $8 millon for these
services. If we assume that non-respondents and respondents had the same usage
rate , an additional $4 milion could have been allowed for Zero Crossers in 1988.

\Ve estimate that Medicare will allow approximately        $124 milion for   services
conducted with Zero Crossers for the 5-year period beginning in 1992. To estimate
Medicare allowances , we applied the 65 percent response rate and the 17 percent
Zero Crosser usage rate to the 700    700 allowed services for the 4 codes in 1989.
Non-respondents were not included in our calculations even though there is no
reason to suspect the usage rate for non-respondents differs from respondents.
assumed an annual 20 percent increase in the number of servces (the actual annual
increase from 1987 to 1989 was between 25 and 30 percent). We used the 1988
average allowed amount of $125 per service for all 5 years. We omitted possible
reimbursement increases because of recent legislative changes designed to minimize
ITcreases.

Many Tests Done With Zero Crossers May Be Inaccurate

Deficiencies in the accuracy of equipment using zero-crossing applications have been
recognized for many years. 1988 study of 157 patients concluded:
     ...      , "           , "




      the errors... of zero-crossing techniques have been recognized for 10 to    15
    years... The inability of the zero-crossing tracing to provide complete and
    accurate information in 50 percent of the cases severely limits its
    usefulness. ' 'I

A 1977 study on multiple arterial readings concluded:

      recordings made by zero-crossing detectors cannot be used for quantitative
    analysis. Moreover , errors are common enough that even qualitative
    interpretation of the recordings   may be questionable in many cases.

Additional pertinent references are. cited in the Appendix.

Our consultant who examined a sample of test results confirmed that Zero Crossers
often produce questionable results compared with more sophisticated equipment.

Reimburements for Zero Crossers and More Sophiticated Equipment are Simar

The 53 devices we determined to be Zero Crossers were reimbursed about the same
as devices producing sophisticated and clinically detailed imaging. Overall , the
weighted Medicare average allowance for Zero Crossers was approximately $125
while the average allowance for services conducted with more sophisticated
equipment was $135.

In theIr efforts to market Zero Crossers , manufacturers do not neglect the potential
compensation which their products provide. As an example , one of the brochures
we encountered contained this advice:

    In addition to its diagnostic value , low cost and simplicity of operation

    the annotated charts provide invaluable documentation in this age of

    medical- legal liability. (Name of device) tests are MEDICARE approved
    and reimbursable by third party insurers under several CPT codes.       Average
    reimbursement exceeds $150.




    1 Cynthia Kupper Burnham
                             ,RVT, Nancy Dewhirst , RVT, and Steven J.
Burnham , MD Doppler Spectral Waveforms For Recording Peripheral Arterial
Signals: The Preferred Method The Joumal of                    April , 1989.
                                                   Vascular Technology,




    2 K. Wayne Johnston , MD , Bruno C. Maruzzo , MASc , and Richard S. C.
Cobb aId , ARCS , MSc , PhD Inaccuracies Of A Zero- Crossing Detector For
Recording Doppler Signals Surgcal Forum , 1977.
                            CONCLUSION

Our report on Low- Cost Ultrasound Equipment recommends that HCF A advocate
revisions in procedure codes and reimbursement rates to reflect the different levels
of sophistication and quality of diagnostic information provided in such tests. (We
understand HCF A has encouraged procedure code revisions in vascular tests during
recent contacts with the American Medical Association s editorial board.

We estimate the following potential savings on Zero Crosser servces if HCF A
adopted our recommendation. The chart depicts various payment options ranging
from non-coverage to $100 for I- year and 5- year periods.


                ZERO CROSSERS

 REIMBURSEMENT                   YEAR SAVINGS                 YEAR SAVINGS

                                $16.     MILLION           $124. 5     MILLION

           $20                  $14.     MILLION           $104. 5     MILLION

           $40                  $11.4    MILLION            $84.      MILLION

           S60                  $8. 7 MILLION               $64.      MILLION

           $80                  $6, 0 MILLION               $44.      MILLION

          $100                  $3. 3 MILLION               $24. 9 MILLION
                      , "                , "        , " , ," "                 , "




                                  APPENDIX

                                        REFERENCES

Barnes , Robert W. Noninvasive Diagnostic Techniques In Peripheral Vascular
Disease American Heart Joumal February, 1979.

Flax,   S.   , Webster , J.   , and Updike ,   S.       Noise And Functional Limitations Of
The Doppler Blood Flowmeter         " Department of Electrical Engineering, Department
of Medicine, University of Wisconsin , Madison , Wisconsin.

Johnston , K. Wayne , Maruzzo , Bruno c. , and Cobbold , Richard S.  Errors And
Artifacts Of Doppler Flowmeters And Their Solution " Read Before The 25th
Meeting Of The International Cardiovascular Society, Rochester , New York, June 16
1977.

Nix, M. Lee , and Barnes , Robert W.           Noninvasive Peripheral Vascular Laboratory
Diagnostic Techniques " University of Arkansas For Medical Sciences , Little Rock
Arkansas , 1985.

Reneman , Robert S. , Clarke , Howard F. , Simmons , Norman , and Spencer , Merrill P.
 In Vivo Comparison Of Electromagnetic And Doppler Flowmeters: With Special
Attention To The Processing Of The Analogue Doppler Flow Signal Cardiovascular
Research ,   1973.


Reneman , Robert S. , and Hoeks , Arnold P.  Doppler Ultrasound In The
Diagnosis Of Cerebrovascular Disease Research Studies Press , 1982.


Reneman , Robert S. , and Spencer , Merril P. Difficulties In Processing Of An
Analogue Doppler Flow Signal; With Special Reference To Zero- Crossing Meters
And Quantification " Janssen Research Foundation , Beerse , Belgium , and Institute of
Environmental Medicine and Physiology, Seattle ,                 Washington.
